Audit of the Management of USAID/Haiti’s
P.L. 480 Title II Food Program

Audit Report No. 1-521-04-001-P

October 20, 2003




             San Salvador, El Salvador
This page intentionally left blank.
October 20, 2003


MEMORANDUM
FOR:          USAID/Haiti Director, David Adams

FROM:         RIG/San Salvador, Steven H. Bernstein

SUBJECT:      Audit of the Management of USAID/Haiti’s P.L. 480 Title
              II Food Program (Report No. 1-521-04-001-P)

This memorandum transmits our final report on the subject audit.

Your comments on the draft report were considered in preparing this
report and are included for your reference in Appendix II.

This report contains four recommendations for your action. A
management decision has been reached for all four recommendations.
The Office of Management Planning and Innovation will make a
determination of final action after the recommendations have been
implemented.

Once again, thank you for the cooperation and courtesy extended to my
staff during the audit.




                                                                   1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                  5
Contents
           Background                                                           6

           Audit Objective                                                      7

           Audit Findings                                                       7

                  Are USAID/Haiti’s P.L. 480 Title II programs managed          7
                  in an efficient manner in accordance with Regulation 11
                  of the U.S. Code of Federal Regulations and best practices
                  for managing food distribution programs?

                         A Management Survey is Needed to                      9
                         Determine Proper Levels of Staffing

                         A Cost Analysis of Commodity                          10
                         Transport Needs to be Performed

                         Food Storage and Distribution                         11
                         Costs Need to be Reviewed

                         Increased Cooperation and Coordination is             13
                         Needed Among the Four Cooperating Sponsors

           Management Comments and Our Evaluation                              13

           Appendix I - Scope and Methodology                                  15

           Appendix II - Management Comments                                   19




                                                                                    3
This page intentionally left blank.




                                      4
Summary of   At the request of USAID/Haiti, the Regional Inspector General/San
Results      Salvador added this audit to its fiscal year 2003 audit plan to determine
             whether USAID/Haiti’s P.L. 480 Title II food programs were managed in
             an efficient manner in accordance with Regulation 11 of the U.S. Code of
             Federal Regulations and best practices for managing food distribution
             programs. The audit covered the costs associated with managing and
             implementing the program (page 7).

             USAID/Haiti’s P.L. 480 Title II food programs were generally being
             managed in an efficient manner in accordance with Regulation 11 of the
             U.S. Code of Federal Regulations and best practices for managing food
             distribution programs. The audit showed that the four cooperating
             sponsors did comply with the basic guidance outlined in Regulation 11
             and, in addition, utilized two joint and three individual practices that have
             made the program more efficient as well as reduced costs. However, the
             audit identified four areas where improvements in management should be
             implemented to reduce cost inefficiencies.

             •      A management survey is needed to determine proper levels of
                    staffing (page 9).

             •      A cost analysis of commodity transport needs to be performed
                    (page 10).

             •      Food storage and distribution costs need to be reviewed (page 11).

             •      Increased cooperation and coordination is needed among the four
                    cooperating sponsors (page 13).

             We are making four recommendations that will help USAID/Haiti
             improve the management costs of the P.L. 480 Title II food program
             (pages 10-13).

             USAID/Haiti concurred with four of the report’s findings and
             recommendations identified in the draft audit report and management
             decisions were made on the four recommendations. RIG/San Salvador
             deleted Recommendation No. 2 as discussed in the draft audit report and
             renumbered findings three, four and five accordingly.




                                                                                        5
Background       P.L. 480 Title II food assistance has been provided to Haiti since the late
                 1950s. Due to inadequate access to, availability of, and utilization of food
                 for more than half of the Haitian population, Haiti remains the most food-
                 insecure nation in the Western Hemisphere. This situation, coupled with
                 over 16 years of political instability and consequent economic
                 deterioration, has translated into chronic food insecurity characterized by
                 poverty and resulting in poor health, diminished agricultural productivity,
                 and poor educational support.

                 In fiscal year 2002, the Mission underwent an intensive evaluation process
                 with its partners and stakeholders to identify the best uses for Title II food
                 aid as a development tool. As a result, the “Reduced Food Insecurity in
                 Target Population Activity” was authorized in September 2002 for a
                 period of four years. The desired goal of the Title II food program is to
                 reduce food insecurity in target populations. Over this four-year period,
                 these programs are funded with direct Mission grants of $17 million, $62
                 million in proceeds from monetized Title II commodities,1 and
                 approximately $19 million in food aid commodities provided directly to
                 eligible beneficiaries.

                 Utilizing this food and funding, four USAID partners referred to as
                 “cooperating sponsors”–Catholic Relief Services (CRS), Cooperative for
                 Assistance and Relief Everywhere (CARE), World Vision International
                 (WVI), and Save the Children Federation (SCF)–implement their
                 individual programs, which include the following types of activities:

                 •   Mother/Child Health activities include distributing dry rations to
                     pregnant women, breastfeeding mothers, children, and/or caretakers of
                     moderately and severely malnourished children.

                 •   Agriculture activities include teaching new farming techniques such as
                     grafting trees and land erosion measures.

                 •   Food for Work activities include drainage/sanitation projects in urban
                     slum areas and road construction projects in rural areas.

                 •   Education activities include ensuring student attendance and improved
                     scholastic achievement and school feeding.

                 •   Income-generating activities include extending credit to women.




             1
                 Some development food aid is monetized, or sold, on private markets, with the proceeds
                 used by the cooperating sponsors to fund development activities.


                                                                                                     6
            Figure 1 summarizes the unaudited direct Mission grant funding,
            monetization, and food aid budgeted for fiscal year 2003.

            Figure 1
                                                                 Directly
                Cooperating   Direct Mission   Monetization                   Total
                                                              Provided Food
                 Sponsor         Funding        Proceeds
                                                                   Aid
             CRS                $1,450,000 $2,567,001           $1,582,000 $5,599,001
             CARE                1,000,000   3,912,271             985,000   5,897,271
             WVI                   500,000   3,847,901           1,397,300   5,745,201
             SCF                   650,000   1,549,401           1,218,100   3,417,501
             Total              $3,600,000 $11,876,574          $5,182,400 $20,658,974

            In the request for this audit, USAID/Haiti noted that Haiti’s poor
            transportation infrastructure, high salary levels, and unavailability of
            trained local workers are some of the factors contributing to what appears
            to be a very costly Title II program. Of concern was the apparently high
            administrative and management costs and the use of direct Mission
            funding. Specifically, the monetized funding is used to implement
            program activities, absorb administrative costs, and pay for logistics and
            staff salaries.



Audit       In March 2003, USAID/Haiti requested an audit of its P.L. 480 Title II
Objective   food program. As a result, the Regional Inspector General/San Salvador
            added this audit to its fiscal year 2003 audit plan to answer the following
            question:

            •       Are USAID/Haiti’s P.L. 480 Title II programs managed in an
                    efficient manner in accordance with Regulation 11 of the U.S.
                    Code of Federal Regulations and best practices for managing food
                    distribution programs?

            Appendix I contains a discussion of the audit’s scope and methodology.



Audit       Are USAID/Haiti’s P.L. 480 Title II programs managed in an efficient
Findings    manner in accordance with Regulation 11 of the U.S. Code of Federal
            Regulations and best practices for managing food distribution
            programs?

            USAID/Haiti’s P.L. 480 Title II food programs were generally managed in
            an efficient manner in accordance with Regulation 11 of the U.S. Code of
            Federal Regulations and best practices for managing food distribution


                                                                                      7
programs. Although we identified some inefficiencies in management, the
audit showed that the four cooperating sponsors (Catholic Relief Services
(CRS), Cooperative for Assistance and Relief Everywhere (CARE),
World Vision International (WVI), and Save the Children Federation
(SCF)) did comply with the basic guidance outlined in Regulation 11 of
the U.S. Code of Federal Regulations and that there were practices used
by the four cooperating sponsors to increase management efficiencies and
to reduce costs.

The audit confirmed the following:

•   The cooperating sponsors had properly executed authorization
    agreements and operational plans with USAID to implement a food
    program.

•   A bilateral agreement with the Government of Haiti had been signed.

•   All four cooperating sponsors were subject to the Mission’s annual
    review of transactions as well as their own annual OMB Circular A-
    133 audit for programs expending more than $300,000 in a program
    year.

•   Commodity shipments were verified through the Government of
    Haiti’s office responsible for receipt and distribution of monetization
    proceeds.

•   The four cooperating sponsors had established procurement
    procedures both locally and in concert with their headquarter offices.

In addition, the cooperating sponsors utilized two joint and three
individual practices, which have made the program more efficient as well
as reduced costs.

•   The warehouse in Port-au-Prince shared by CRS, WVI, and SCF was
    well managed, clean, and secure.

•   The cooperating sponsors had mechanisms in place to “borrow”
    commodities from one another to avoid food aid shortages in a
    cooperating sponsor’s area.

•   As a result of hard bargaining by its staff, CRS negotiated a transport
    contract for shipping commodities from Port-au-Prince to Les Cayes
    for $21 per metric ton, which, according to the commodity manager,
    was substantially lower than even its own fleet of trucks could match.




                                                                          8
•      CRS developed a schematic to depict Haitian common commodity
       measurements, such as Coca-Cola bottles, for distributing vegetable
       oil. This schematic minimized confusion on the part of both the client
       and the distributor regarding exact food allocations.

•      CARE sent two of its personnel for training in clearing goods through
       Haitian customs. CARE management stated that this training had been
       a great help in expediting commodities through customs.

In the following four areas, however, improvements in management
should be implemented to reduce cost inefficiencies.

A Management Survey is Needed to
Determine Proper Levels of Staffing

Figure 2 reflects the current personnel the four cooperating sponsors have
charged against their activities under the P.L. 480 Title II food program.

Figure 2
  Cooperating                 Local             Expatriates*              Total
    Sponsor                 Personnel*
 CRS                                 170                       7                  177
 CARE                                299                       7                  306
 WVI                                 179                       6                  185
 SCF 2                               200                       4                  204
 Total                               848                      24                  872

*      Includes full-time and part-time equivalent positions of the
cooperating sponsors and their local partners.

All the cooperating sponsors maintained that their programs were labor
intensive, and two of the four stated that due to budget reductions their
staffing levels had been reduced from the levels of the 1990s. Mission and
cooperating sponsor personnel maintained that their current program’s
increased emphasis on health, agriculture, and education required large
numbers of personnel to implement. However, variances existed in the
staffing of several offices. For example, three of the cooperating sponsors
had between three to five personnel in the controller’s office, while one
cooperating sponsor had 17 people. Human resource offices varied
between three and five personnel, but the number of people directly
managed by these offices varied between 177 and 306 personnel. As
shown in figure 3, personnel costs comprised from 48 to 73 percent of the
unaudited fiscal year 2003 local operating budgets.

2
    SCF had no previous P.L. 480 Title II Food Program experience in Haiti. As a result,
    SCF executed an implementation agreement with two local partners.


                                                                                      9
Figure 3
 Cooperating FY 2003 Local FY 2003 Local               Percentage of
   Sponsor    Operating      Personnel               Personnel Budget
                Budget        Budget                   to Operating
                                                          Budget
 CRS                 $4,017,001        $1,916,117                  48%
 CARE                 4,912,271         3,609,494                  73%
 WVI                  4,347,901         2,561,580                  59%
 SCF*                 2,199,401         1,220,323                  56%

*     Includes local partners’ personnel costs.

Such large personnel costs reduce the amount of available resources that
can be used for other operational costs incurred in the implementation of
the program. Regulation 11 of the U.S. Code of Federal Regulations
states that “cooperating sponsors shall provide adequate supervisory
personnel for the efficient operation of the program.” OMB Circular A-
122, Attachment A, states that “a cost is reasonable if, in its nature or
amount, it does not exceed that which would have been incurred by a
prudent person under the circumstances prevailing at the time the decision
was made to incur costs.”

Since none of the cooperating sponsors had performed reviews to
determine the number of personnel required to effectively complete the
operational or administrative support tasks, it seems prudent that a
personnel management survey be performed to determine the proper levels
of staffing required by each cooperating sponsor. Significant cost savings
could result from this survey. Consequently, we are making the following
recommendation.

       Recommendation No. 1: We recommend that
       USAID/Haiti conduct a personnel management survey
       of the four cooperating sponsors to determine the most
       efficient level of staffing.


A Cost Analysis of Commodity
Transport Needs to be Performed

Two cooperating sponsors maintain in-house overland transportation
capability for transporting commodities to their areas of operation,
including trucks, dispatchers, mechanics, drivers, and a garage. The other
two cooperating sponsors rely solely on transport contracts. The two
which maintained in-house transport capability also had supplementary



                                                                       10
transport contracts, which both commodity managers agreed were cheaper
than using their in-house transport. One commodity manager cited an
informal analysis which showed in-house transport costs of $70 per metric
ton of food versus the contract carrier price of $47 per metric ton. The
other commodity manager was not able to give specific figures for in-
house transport, but had contracted transport for $21 per metric ton to their
area of operations. In addition, for all four cooperating sponsors, the
contract carrier price ranged from $14 to $74 per metric ton of food,
depending on the contract carrier and location. The commodity managers
who maintained in-house transport capability cited reliability and security
as the reasons for not contracting out all transportation requirements, even
though they stated they had experienced no problems with the contract
transport.

OMB Circular A-122, Attachment A, states that “a cost is reasonable if, in
its nature or amount, it does not exceed that which would have been
incurred by a prudent person under the circumstances prevailing at the
time the decision was made to incur costs.” Nevertheless, no formal
review had been undertaken by the two cooperating sponsors with in-
house transport capability to determine which method was most cost
effective. Further, the cooperating sponsors had not addressed the
possibility of a joint transport contract or contracts to take advantage of
the economies of scale. A review to determine the most economical
method of commodity transport could result in cost savings to the
program. Consequently, we are making the following recommendation.

        Recommendation No. 2: We recommend that
        USAID/Haiti (a) coordinate a cost analysis to determine
        the most cost-effective method of transporting
        commodities, and (b) coordinate the negotiation of a
        joint transport contract or contracts by the four
        cooperating sponsors.


Food Storage and Distribution
Costs Need to be Reviewed

Food storage and distribution in Haiti is extremely expensive given the
number of personnel required to staff even a small warehouse, plus rental
and maintenance costs. In one instance, a subrecipient maintained 11
separate commodity warehouses whose personnel costs alone ranged from
$17,000 to $34,000 per warehouse per year. To illustrate costs of
commodities requiring warehousing and distributing, Figure 4 summarizes
the unaudited budgeted food aid for fiscal year 2003 through fiscal year
2006.




                                                                          11
Figure 4
   Cooperating          FY 2003          FY 2004          FY 2005          FY 2006
     Sponsor
  CRS                  $1,582,000       $1,598,400       $1,659,800       $1,648,600
  CARE                    985,000        1,129,000        1,049,300        1,217,300
  WVI                   1,397,300        1,507,300        1,451,500        1,250,100
  SCF                   1,218,100          630,800          683,800          656,200

The cooperating sponsors stated that each of their programs focused on
different areas such as education, agriculture, and health. In some
instances, the cost of personnel involved in food storage and distribution
were partially imbedded in these areas. Figure 5, provided by the
cooperating sponsors, compares the unaudited budgeted food storage and
local distribution costs with the estimated food aid commodity costs for FY
2003.

Figure 5
  Cooperating         Food Aid         Cost of Storage        Cost of Storage and
    Sponsor                            & Distribution*          Distribution per
                                                               $1.00 of Food Aid
    CRS                $1,582,000               $407,950                     $0.26
    CARE **               985,000                231,860                     $0.24
    WVI                 1,397,300                925,308                     $0.66
    SCF***              1,218,100                790,795                     $0.66

*      Does not include ocean freight or transport costs to distribution centers.
**     Unable to distinguish distribution personnel from overall program personnel.
***    Includes subgrantees.

The costs to store and distribute food illustrate the disparity among the
cooperating sponsors. As stated previously, OMB Circular A-122,
Attachment A, states, “a cost is reasonable if, in its nature or amount, it
does not exceed that which would have been incurred by a prudent person
under the circumstances prevailing at the time the decision was made to
incur costs.” Since no overall review of the food distribution system for
Haiti has been undertaken, costs to store and distribute food could be
substantially higher than necessary. While the four cooperating sponsors
operate in different areas of the country, it is not clear why the cost of
distribution and storage of food varies so greatly among them. The
Mission needs to coordinate a countrywide review of the management,
storage, and distribution systems to determine whether a duplication of
effort exists and whether storage and distribution operations could be
consolidated.



                                                                                      12
                      Recommendation No. 3: We recommend that
                      USAID/Haiti coordinate a review of the four
                      cooperating sponsors’ commodity management systems
                      to determine whether duplicate activities exist and
                      whether storage and distribution operations could be
                      consolidated.


               Increased Cooperation and Coordination is
               Needed Among the Four Cooperating Sponsors

               The four cooperating sponsors did cooperate among themselves on a
               limited basis. Some good examples include WVI, CRS, and SCF sharing
               a joint warehouse in Port-au-Prince and the cooperating sponsors sharing
               food aid to avoid shortages. Each cooperating sponsor maintains a fully
               staffed headquarters in Port-au-Prince with the commonality of functions
               that such an operation entails. The Mission and four cooperating sponsors
               conducted regular meetings to discuss programmatic issues. However,
               while there was general discussion of joint coordination of program
               activities to avoid duplication of effort, no specific agenda or plan was set
               for formal coordination, especially as related to administrative issues, such
               as transport, food storage, personnel, and administrative maintenance that
               were previously discussed throughout the report. As a result, costs in
               these areas could be substantially higher than necessary. As stated in
               USAID Automated Directives System (ADS) 200, the declining
               development assistance resources worldwide increase the need for
               effective donor coordination. A review of commonality of functions for
               potential consolidation in the various areas of the program to avoid
               duplication of effort and take advantage of economies and efficiencies of
               scale could net further cost savings. Consequently, we are making the
               following recommendation.

                      Recommendation No.           4: We recommend that
                      USAID/Haiti develop a         plan with the cooperating
                      sponsors to coordinate        program activities to avoid
                      duplication of effort and    take advantage of economies
                      and efficiencies of scale.




Management     In response to the draft report, USAID/Haiti presented steps being taken to
Comments and   address the four recommendations. Consequently, management decisions
Our            were made on all four recommendations. RIG/San Salvador deleted
               Recommendation No. 2 as discussed in the draft audit report and
Evaluation

                                                                                         13
renumbered findings three, four and five accordingly. The Mission
provided additional information on the budgeted value of food aid and
their costs of food distribution and storage. After verification, these figures
have been updated to reflect the Mission’s input. Mission comments are
included in their entirety in Appendix II.




                                                                            14
                                                                        Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted an audit of the
              management of USAID/Haiti’s P.L. 480 Title II food program. The audit
              was performed in accordance with generally accepted government
              auditing standards to determine if USAID/Haiti’s P.L. 480 Title II
              programs were managed in an efficient manner in accordance with
              Regulation 11 of the U.S. Code of Federal Regulations and best practices
              for managing food distribution programs. The audit covered the period
              from September 16, 2002 through May 31, 2003.

              We conducted the audit in Haiti from May 27, 2003 to June 18, 2003 at
              the offices of USAID/Haiti, Catholic Relief Services (CRS), Cooperative
              for Assistance and Relief Everywhere (CARE), World Vision
              International (WVI), and Save the Children Federation (SCF). We also
              visited the P.L. 480 Title III Office of the Government of Haiti and the
              joint commodities warehouse in Port-au-Prince, Haiti.

              In planning and performing the audit, we obtained an understanding of
              management controls related to the program. We assessed the Mission’s
              risk exposure and control effectiveness over the P.L. 480 Title II food
              program management and administrative costs. We conducted interviews
              with key USAID/Haiti personnel and reviewed the Mission’s fiscal year
              2002 annual self-assessment of its compliance with the Federal Manager’s
              Financial Integrity Act of 1982. In addition, we reviewed the Mission
              Controller Office’s internal assessments of the four cooperating sponsors
              operating procedures and costs.

              We assessed the cooperating sponsors’ control procedures and processes
              for personnel management, procurement, and commodity management,
              including transportation procedures for commodities and monetization
              procedures as they related to program expenditures.

              We reviewed 100 percent of program operating expenses, monetization
              and direct income, all capital equipment procurements, payrolls against
              employee rosters and locations, and all transportation contracts (except
              CRS), warehouse contracts, and other rental contracts for the period
              October 1, 2002 through March 31, 2003. However, we did not audit the
              budgeted figures. In addition, we considered prior audit findings that
              could affect Haiti’s P.L. Title II food program.

              Methodology

              To answer the audit objective, we conducted interviews with the
              responsible officials and reviewed relevant documentation maintained by


                                                                                   15
                                                           Appendix I
USAID/Haiti, the P.L. 480 Title III Office of the Government of Haiti,
USAID/Haiti’s four cooperating sponsors, and the joint commodities
warehouse in Port-au-Prince.

We reviewed the Development Activity Program agreements for each
cooperating sponsor, internal reviews conducted by the Mission, prior
audit findings, Regulation 11 of the U.S. Code of Federal Regulations,
OMB Circular A-122, U.S. Government Auditing Standards, and research
found on the Internet to determine best practices used by food program
implementers.

With respect to financial data, we examined:

1.     Detailed budgets of the four cooperating sponsors for fiscal year
       2003 to determine if any significant reprogramming had to be
       made by any of the cooperating sponsors.

2.     The income of the four cooperating sponsors consisting of direct
       grant funding from the Mission and monetization proceeds.

3.     Expenses focusing on payroll, procurement and commodity
       management, storage, and transport.

With respect to the income, we verified the monetization proceeds by
confirming amounts with the Haitian government and the checks issued to
the cooperating sponsors in payment for the shipments of commodities
which were monetized.

In examining the payroll area, we verified the numbers of personnel
utilized to implement the program and salaries and benefits being charged
against the program. Then we compared the size of each organization to
determine if any large variances existed in functional areas. We verified
that no management assessment of staffing levels had been conducted by
any of the four cooperating sponsors.

In examining procurements, we identified procurement thresholds and
confirmed whether the cooperating sponsors were securing procurements
in accordance with their policies and procedures. We targeted large-ticket
items such as vehicle purchases and computers.

For commodity management, which encompasses storage, transport, and
distribution, we reviewed the warehouse contracts, transportation
contracts, and local distribution of commodities. We verified that there
had been no countrywide review of the commodity distribution system.
For transportation of commodities, we obtained transport contracts for
three of the four cooperating sponsors. We reviewed in-house transport


                                                                      16
                                                            Appendix I
capability and costs and verified that there had been no cost analysis
undertaken to determine the most cost-efficient method of transporting
commodities.

We calculated the actual cost of operating the program for each
cooperating sponsor for the period October 1, 2002 to March 31, 2003.
We then determined each cooperating sponsors’ per capita cost per client
and the cost per kilogram of commodities distributed for both that period
and the estimated cost for the entire fiscal year. These costs were
compared to determine if any significant cost variances existed among the
programs of the cooperating sponsors.

Finally, we conducted a site visit to the Schodescosa commodity
warehouse in Port-au-Prince, Haiti, jointly maintained by three of the four
cooperating sponsors, to observe if the warehouse was being run in a
clean, efficient, and cost-effective manner. We were not able to visit the
main warehouse maintained by the fourth cooperating sponsor due to
security concerns.

In answering the audit objective, we concluded that given the nature of
our audit objective, it was more efficient to evaluate administrative and
management costs to determine if cost savings could be achieved through
economies and efficiencies. Consequently, we did not establish a
materiality threshold in our audit program or determine if questioned costs
existed.




                                                                       17
This page intentionally left blank.




                                      18
                                                                               Appendix II

Management
                                                                UNITED STATES GOVERNMENT
Comments
                                                           MEMORANDUM

   DATE:                 October 2, 2003
   REPLY TO
   ATTN OF:              David Adams
                         USAID/Haiti Mission Director
   SUBJECT:              Comments on the RIG Draft Audit Report No.1-521-04-XXX-P

   TO:                   Steven H. Bernstein
                         RIG/San Salvador


   This memorandum constitutes USAID/Haiti’s response to the RIG Draft Audit Report of
   the Management of USAID/Haiti’s PL 480 Title II program.

   General Comments:

   USAID/Haiti appreciates the time and effort of your staff in carrying out the performance
   audit of the PL 480 Title II program. After completing its review of the Draft Audit
   Report, in collaboration with the Cooperating Sponsors, the Mission has some specific
   comments to make regarding the draft audit report. Based on the Cooperating Sponsors’
   inputs, the Mission would like RIG to make some factual corrections in the following
   pages:

   Page 6: - the actual funding level for CARE is $1,000,000 not $1,200,000;
          - the current level of food aid provided though World Vision is $3,062,900 not
            $1,397,300.

   Page 9: table 2, the total personnel for World Vision is 184, 179 local staff and 5
           Expatriates.

   Page12: table 5, the costs of food aid and storage for both World Vision and Save the
           Children are respectively $3,062,900 and $925,308 for the first one and
           $1,467,404 and $790,795 for the latter. Therefore the cost of storage and
           distribution per $1.00 of Food Aid is $0.30 for World Vision and $0.54
           for Save the Children.




                                                                                           19
                                                                          Appendix II


Summary of audit recommendations:

Recommendation No 1: We recommend that USAID/Haiti conduct a personnel
management survey of the four cooperating sponsors to determine the most efficient level
of staffing.

Recommendation No. 2: We recommend that USAID/Haiti coordinate the creation of a
joint intern training program among the cooperating sponsors.

Recommendation No 3: We recommend that USAID/Haiti (a) coordinate a cost analysis
to determine the most cost-effective method of transporting commodities and (b)
coordinate the negotiation of a joint transport contract or contracts by the four
cooperating sponsors.

Recommendation No. 4: We recommend that USAID/Haiti coordinate a review of the
four cooperating sponsors’ commodity management systems to determine whether
duplicate activities exist and whether storage and distribution operations could be
consolidated.

Recommendation No. 5: We recommend that USAID/Haiti develop a plan with the
cooperating sponsors to coordinate program activities to avoid duplication of effort and
take advantage of economics and efficiencies of scale.

Management Response:

1.    Recommendations No.1, No.3, No.4, No.5: Regarding the recommendations
mentioned above, USAID/Haiti will contract out with a consulting firm experienced in
PL 480 Title II management to perform the following tasks:
   -       to conduct a personnel management survey,
   -       to perform a cost analysis of commodity transport,
   -       to review food storage and distribution costs, and
   -       to develop a coordination plan for program activities.

USAID/Haiti, based upon actions planned to address recommendations No.1, No. 3, No.
4, and No. 5, is requesting that RIG consider management decisions have been reached
for these 4 recommendations.        USAID/Haiti will request to closure of these
recommendations to M/MPI upon submission of the final report by the consulting firm.

2.      Recommendation No.2: The current socio-economic environment in Haiti has
had a negative impact on the Haitian labor force. Many qualified professionals have left
the country in search of better opportunities abroad. As mentioned in page 3 of
Frontlines for the months of July/August 2003 “Haitians will continue to leave their
homeland until some hope of a better life can be assured and political obstacles to aid,
investment, and economic growth can be resolved”. Availability of qualified staff in Haiti


                                                                                       20
                                                                          Appendix II
is not an issue we believe can be addressed by the creation of a joint intern training
program. This is a broader issue which will require political and socio-economic changes
before significant improvement in this area can be achieved.

USAID/Haiti in consultation with the cooperating sponsors will continue efforts to
identify programs which could be implemented to foster an improved environment with
regard to staff development and retention. However, we do not believe implementation
of recommendation number 2 as stated in the draft audit report will address the root cause
of the problem and will therefore not have the impact required to ensure qualified local
personnel are available in Haiti at the salary levels offered by the cooperating sponsors.

Therefore, USAID/Haiti requests that RIG/San Salvador delete this recommendation
prior to issuance of the final audit report.

In closing, USAID/Haiti would again like to express its appreciation for the manner in
which the audit was conducted and the usefulness of the recommendations contained
therein. It is our opinion that implementation of these recommendations will result in the
more efficient management of the USAID/Haiti food distribution programs.




                                                                                       21
